No. 19-7 |

SEILA Law LLC, |
Petitioner,
Vv.
CONSUMER FINANCIAL PROTECTION BUREAU,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, David H. Thompson a
member of the Supreme Court Bar, certify that the BRIEF OF AMICI CURIAE
PATRICK J. COLLINS, MARCUS J. LIOTTA, and WILLIAM M. HITCH- |
COCK, in the above entitled case complies with the typeface requirements of
Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point
for the text and 10 point for the footnotes, and that this brief complies with the
word limitation of Supreme Court Rule 33.1(g)(xi) (2017), containing 2,710
words, excluding the parts that are exempted by Supreme Court Rule 33.1(d).
See Rule 48.2 (2019) (providing that the 2019 amendments to Rule 33.1(g) do

not apply to cases where certiorari was granted before July 1, 2019).

     

 

Date: December 16, 2019 ~
David H. Thompson

 
